W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1753

Joseph Dennis Gilberti, Jr.

Adrurra Group, Inc., et al.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Carollo Engineers, Inc.

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Nicholas A. Shannin

Date:

6/28/21

Digitally signed by Nicholas A. Shannin
Date: 2021.06.28 17:05:44 -04'00'

(Type or print) Name Nicholas A. Shannin, Esquire
Mr.

Ms.

Mrs.

Miss

Firm

Shannin Law Firm, P.A. of Counsel with Bennett Legal Group, P.A.

Address

214 South Lucerne Circle East, Suite 200

City & State

Orlando, Florida

Phone

407-985-2222

Zip 32801
Email

service@shanninlaw.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Joseph D. Gilberti, Pro Se Petitioner
385 Donora Blvd.
Ft. Myers Beach, FL 33931

